No. 19-589
IN THE

impreme Court of tbe Zilittiteb 6tate5
RIMINI STREET, INC.,
Petitioner,
v.
ORACLE USA, INC, ET AL.,
Respondents.
On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit
BRIEF OF AMICI CURIAE THE REPAIR ASSOCIATION
IN SUPPORT OF PETITION
JAMES C. PHILLIPS
KIRTON I MCCONKIE
36 South State Street
Suite 1900
Salt Lake City, UT 84111

ALEKSANDER J. GORANIN
Counsel of Record
MICHAEL R. GOTTFRIED
DUANE MORRIS LLP
30 South 17th Street
Philadelphia, PA 19103
(215) 979-1868
agoranin@duanemorris.com

1

TABLE OF CONTENTS
TABLE OF AUTHORITIES

iii

INTERESTS OF AMICUS CURIAE

1

SUMMARY OF ARGUMENT

2

ARGUMENT

7

THIS COURT AND THE COURTS OF
APPEAL HAVE LONG RECOGNIZED
A RIGHT TO REPAIR

7

AMBIGUOUS SOFTWARE LICENSE
TERMS
COUPLED
WITH
INDISCRIMINATE
PERMANENT
INJUNCTIONS
PRESENT
PROFOUND THREATS TO
CUSTOMERS' RIGHT TO REPAIR
AND TO THIRD-PARTY SUPPORT
LEGITIMATE
PROVIDERS'
BEHAVIOR

9

The ambiguity of many software license agreements creates challenges
to individual customers and their independent rep air and support
providers

11

Customers and their support providers must be permitted to rely on the
innocence of their conduct to the fullest extent allowed in a copyright
infringement action

13

11

The solution to the dilemma facing
support providers and their customers is to ensure that jury findings of
innocent behavior are weighed in the
decision to grant a permanent injunction

15

The district court's and court of appeals' injunctive rule threatens harsh
consequences beyond the market for
software service and maintenance

17

CONCLUSION

18

111

TABLE OF AUTHORITIES
Cases:
Aro Mfg. Co. v.
Convertible Top Replacement Co.,
365 U.S. 336 (1961)

2

Eastman Kodak Co. v.
Image Technical Services,
504 U.S. 451 (1992)

7

Fromberg, Inc. v. Gross Mfg. Co.,
328 F.2d 803 (9th Cir. 1964)

8

High Voltage Eng'g Corp. v.
Potentials, Inc.,
519 F.2d 1375 (5th Cir. 1975)

8

Jazz Photo Corp. v. Int'l Trade Comm'n,
264 F.3d 1094 (Fed. Cir. 2001)

8

MDY Indus., LLC v. Blizzard Entm't, Inc.,
14
629 F.3d 928 (9th Cir. 2010)
Oracle USA Inc. v. Rimini Street, Inc.,
879 F.3d 948 (9th Cir. 2018)

9

Sage Prods., Inc. v. Devon Indus., Inc.,
45 F.3d 1575 (Fed. Cir. 1995)

8

Wilson v. Simpson,
50 U.S. 109 (1850)

7

Statutes and Other Authorities:

17 U.S.C. § 504(c)(2)

10

Dan Woods, Why Third-Party
Software Support is Possible and
a Good Idea, Forbes, Apr. 18, 2016

10

iv
Department of Commerce Internet Policy
Task Force, White Paper on Remixes,
First Sale, and Statutory Damages 57
(Jan. 2016)
12, 17
Marc Andreesen, Why Software is Eating
the World, Wall St. J. (Aug. 20, 2011) 18
Oracle, Corporate Facts, https://www.oracle.com/corporate/corporate-facts.html
(last visited Dec. 2, 2019)
17
Sup. Ct. R. 37.2

1

Sup. Ct. R. 37.6

1

U.S. Copyright Office, Software-Enabled
Consumer Products:
A Report to the Register of Copyrights
12, 17
(Dec. 2016)

INTERESTS OF AMICUS CURIAE'
Amicus curiae The Repair Association, officially the
Digital Right to Repair Coalition, is a 501(c) trade association founded in 2013 to represent multiple
stakeholders involved in the repair and reuse of technology—from do-it-yourself "DIY" hobbyists and
independent repair technicians to environmental organizations and businesses involved in the
aftermarkets for computer equipment and consumer
electronics. Founding members of The Repair Association include the Service Industry Association (SIA),
the Association of Computer Dealers Inc. (ASCDI), the
National Association of Telecommunications Dealers
(NATD), the Electronic Frontier Foundation (EFF),
and iFixit.org.
Through its activities, The Repair Association supports a long tradition of American consumers buying
and selling products without worrying about whether
they have the ability to repair or reuse those products.
The Repair Association's animating principle is that a
free, independent market for repair and reuse of all
goods and services—from mobile phones to cars to
medical devices to software—is more efficient, more
competitive, and better overall for consumers, local
job growth, and the environment.
The Repair Association defends and promotes consumers' right to repair by, among other things,
1 Pursuant to Supreme Court Rule 37.6, amici state that no
counsel for any party authored this brief in whole or in part and
that no entity or person, aside from amici, their members, and
their counsel, made any monetary contribution toward the preparation or submission of this brief. Pursuant to Supreme Court
Rule 37.2, amici certify that counsel of record for all parties received notice of the intent to file this brief at least 10 days before
it was due and have consented to this filing.

2
working to introduce "fair repair" bills in states like
South Dakota, New York, Minnesota, and Nebraska;
assisting in the passage of the Unlocking Consumer
Choice and Wireless Competition Act signed into law
by President Barack Obama in 2014; and advocating
for the interests of consumer and independent repair
technician rights before the Copyright Office and the
Federal Trade Commission.
The Repair Association respectfully submits this
amicu,s brief to explain the consequences and anticompetitive risks that the underlying court rulings—
upholding the entry of a permanent injunction notwithstanding a jury's finding of innocent conduct—
poses to consumers, end users, and the service and repair providers they engage to act on their behalf.
SUMMARY OF ARGUMENT
Ours is a society of stuff. From the cars that
transport us, to the phones in our pockets and purses,
to the refrigerators and air conditioners that make life
comfortable—we rely heavily on machines in nearly
every part of modern American life. But machines
break and need maintenance, so we take our cars to
the mechanic or call the AC repairperson when the air
conditioner dies on a sweltering August day.
Mindful of this economic reality, this Court and the
Courts of Appeals below have long recognized consumers' right to repair the products they buy and use
every day. In the domains of intellectual property and
antitrust law, the courts for decades have defended
"the lawful right of the owner to repair his property."
Aro Mfg. Co. v. Convertible Top Replacement Co., 365
U.S. 336, 346 (1961).

3
The district court's and Court of Appeals' rulings on
the permanent injunction below strike at the heart of
this vital, well-settled right to repair. As ably explained in Rimini Street's petition for writ of certiorari
(Pet. at 4-8), the core of the copyright dispute at trial
was over the reasonableness of Rimini Street's interpretation of ambiguous language in Oracle's software
license agreements with its end users. Importantly,
such license ambiguity is not an idiosyncratic accident
limited to the underlying dispute between Oracle and
Rimini Street. Rather, it is an unfortunate endemic
reality that end users—and the third-party repair
providers they hire to act on their behalf—must bear
all too often. Both the Department of Commerce and
the Copyright Office, in reports issued over the past
few years, have grappled with the issue of vague enduser license agreements and the pressures they impose on consumers seeking simply to repair and
service the products they bought or licensed.
The court rulings here only exacerbate the problem.
Even though Rimini Street's reading of the Oracle's
license agreement was ultimately rejected—and Rimini Street was found to infringe because the basic
copyright cause of action is a strict liability offense—
there is no dispute that the jury found Rimini Street's
infringement to be "innocent"—an honest mistake in
the reading of the scope of Oracle's license restrictions. Pet. at 6; Pet. App. at 108a-109a. Nor is
there a debate that the Rimini Street paid in full the
monetary damages the jury and district court assessed to be the consequence of that infringement.
Pet. at 6. But by then also granting a permanent injunction—and, in so doing, explicitly ignoring the
adjudicated finding of "innocent" infringement—the

4
courts below imposed an additional penalty on the repair provider out of proportion to the underlying
offense.
Negating the ability to defend against an injunction
by pointing to an innocent mental state—e.g., an honest mistake in construing the scope of a vendor's
license—would profoundly chill the ability of customers and their service providers to exercise their longestablished right to repair.
Consider the server repair technician who is hired
by a company to repair company servers located
across multiple satellite offices. Repairing those servers requires making copies of the software, but the
copying of that software may be limited by a license
agreement. There is no question that the client company has the right to repair its servers, or to make the
copies of the software necessary to effect that repair,
but the specific manner in which those copies are
made may be limited by the software vendor's license.
But assume the vendor's license requires that the
software be copied only at the licensee's "principal
place of business." In that case, the repair technician
who visits a satellite office and makes a software copy
necessary to repair at that location is technically in
violation of the "principal place of business" license restriction and could therefore be found to infringe. That
is not bad faith conduct by the technician. In fact, the
technician most likely would not have had access to
the license agreement itself, because in such scenarios
in the real world, the technician typically relies on his
or her client's assurances (often memorialized in the
service agreement between the technician and the client) that the client has the right to copy the software.
Nonetheless, in this example, the repair technician—

5
operating in good faith—could be found liable for copyright infringement, a strict liability offense.
Because of this violation, the technician could be required to pay compensatory damages under the
Copyright Act, such as statutory damages or, in the
unlikely event the licensor suffered lost profits or the
technician received profits directly attribute to the infringement, actual damages. But the damages in such
a scenario would be minimal and—importantly—
would not have a dramatic impact on competition in
the repair market. That is decidedly not the case were
the repairman, having engaged in innocent infringement, is also subject to a broad and punitive
permanent injunction, like the one upheld in the proceedings below. The unfortunate consequence of
entering such permanent injunctive relief against innocently infringing repairpersons would be to force
independent rep airpersons out of the market and
thereby chill effective and client-beneficial competition.
Moreover, such risks of innocent infringement are
common throughout the repair industry. Repair businesses and their employees often operate as
subcontractors to original equipment manufacturers
(OEMs) but also offer their services directly in competition with OEMs, and are often engaged directly by
the OEMs' licensees to perform repair on the licensees' behalf. As a result, repair businesses must rely
upon the licensees' own assurances that their license
status vis-à-vis the OEMs is correct, rather than examining the upstream OEM-to-licensee agreement
itself.
It would be impractical, if not impossible, for a repair business to scrutinize all the upstream contracts

6
between its clients and such clients' vendors. Indeed,
most corporate clients of repair businesses operate
multi-vendor information technology environments
with upwards of 50 different types of hardware and
software products, each of which commonly carries its
own specific license agreement. And many of these license agreements also include confidentiality or nondisclosure clauses, which only further restrict the
ability of third-party repair businesses from examining or assessing the scope of their clients' license.
Lastly, even if the license agreements themselves
could be examined, they often include ambiguous
terms and can change over time, as explained further
in Section II.A. infra. Thus, from the repair businesses' perspective, the scope of license restrictions
may be uncertain from the outset or may even change
over time, without the repair business' knowledge, as
OEMs and other vendors amend license agreement
terms. In that circumstance, a repair business or its
customer could easily find itself inadvertently acting
outside the scope of license, and thereby be subject to
copyright infringement liability, even based on honest
mistakes or innocent conduct. To punish such conduct
with a permanent injunction—or even to allow the
threat of such an injunction to loom over a repair business—serves no beneficial, remedial, or procompetitive purpose.
These problems are likely to cross over to the consumer goods sphere as well. With the proliferation of
"smart" (i.e., computer-, software-, and networkingenabled) televisions, doorbells, refrigerators, and personal voice assistants, end-user license agreements
are only becoming more prevalent. In our modern
marketplace, where software and accompanying end-

7
user license agreements are embedded in all manner
of products, it is all the more urgent to protect consumers and repair providers from any encroachment
on the fundamental right to repair such products—
and from the threat of punitive injunctions arising
from innocent readings of ambiguous license terms.
ARGUMENT
I. THIS COURT AND THE COURTS OF
APPEAL HAVE LONG RECOGNIZED A
RIGHT TO REPAIR
First identified over a century and a half ago, see
Wilson v. Simpson, 50 U.S. 109, 123 (1850), this Court
has long safeguarded "the lawful right of the owner to
repair his property." Aro Mfg. Co., 365 U.S. at 346.
This patent law doctrine observes that a license to use
a patented item includes the right "to preserve its fitness for use so far as it may be affected by wear or
breakage." Id. at 345-46.
Similarly, in Eastman Kodak Co. v. Image Technical
Services, 504 U.S. 451 (1992), this Court, in the antirust context, sought to protect aftermarkets for repair
parts and services—chiefly the domain of third-party
"independent service organizations." Id. at 455. The
Court held that a manufacturer could be found to possess market power in the secondary repair market,
even if it lacked such power in the primary market for
its equipment. Id. at 469-71.
In the wake of this Court's Aro decision, lower courts
recognized the importance of the right to repair in a
host of scenarios. Thus, when a manufacturer bundled
and sold kits, which included another company's patented device and the manufacturer's own
replacement parts for that device, the Ninth Circuit

8
ruled in favor of the manufacturer in the patent infringement suit under the right-to-repair doctrine.
See Fromberg, Inc. v. Gross Mfg. Co., 328 F.2d 803,
804-05, 808 (9th Cir. 1964). Likewise, the Fifth Circuit
found no patent infringement under the right-to-repair doctrine regarding a company that cleaned,
resurfaced, and reassembled patented tubes that had
become unusable due to grime deposits. See High
Voltage Eng'g Corp. v. Potentials, Inc., 519 F.2d 1375
(5th Cir. 1975).
Similarly, the Federal Circuit concluded that a company that replaced the removable inner container of a
surgical disposal system was not infringing a patent
under the right-to-repair doctrine. See Sage Prods.,
Inc. v. Devon Indus., Inc., 45 F.3d 1575, 1579 (Fed.
Cir. 1995). Moreover, the court noted that by suing the
defendant, the patent holder was seeking to monopolize the market for that replacement part and
illegitimately extend its patent rights to an unpatented component. Ibid. See also Jazz Photo Corp. v.
Int'l Trade Comin'n, 264 F.3d 1094, 1098, 1110-11
(Fed. Cir. 2001) (holding that refurbishing patented
single-use, disposable cameras, which included removing the camera's cover, cutting open plastic
casing, installing new film, replacing the film's winding wheel, replacing the camera's battery, resetting
the film counter, resealing the case, and adding a new
cover, did not constitute patent infringement because
of the right to repair).
Although not explicitly raised in Rimini Street's petition for certiorari, the court rulings on permanent
injunctive relief below present an extension of the issues raised in the long line of right-to-repair cases
summarized above. If allowed to stand, the rulings
pose grave threats to this important customer right.

9
II. AMBIGUOUS SOFTWARE LICENSE
TERMS
COUPLED
WITH
INDISCRIMINATE
PERMANENT
INJUNCTIONS PRESENT PROFOUND
THREATS TO CUSTOMERS' RIGHT TO
REPAIR AND TO THIRD-PARTY SUPPORT
PROVIDERS' LEGITIMATE BEHAVIOR
End users seeking to repair the products they
bought—and the independent third-party support
providers they hire to act on their behalf—often face a
substantial dilemma. On the one hand, there is no
question that customers' conduct and the providers'
business model is legitimate. Indeed, as the Ninth Circuit observed below, Rimini Street "[alt all relevant
times * * * provided third-party support for Oracle's
enterprise software, in lawful competition with Oracle's direct maintenance services." Oracle USA Inc. v.
Rimini Street, Inc., 879 F.3d 948, 952 (9th Cir. 2018)
(emphasis added). Even the Oracle respondents in
their briefing to the Court of Appeals stressed that
"[n]othing in Oracle's licenses prohibits Oracle's customers from using other products, or from using third
parties to service Oracle's products. Third parties remain free to offer their own software and their own
support services for Oracle's software."2
On the other hand, commercial enterprise-software
relationships are inevitably defined by software license agreements—and these agreements, like many'
end-user license agreements, can include ambiguous
license terms that ex post can be interpreted by certain vendors in aggressive and unilaterally

2 Answering Brief for Appellee at 41, Dkt. 50 in Oracle USA
Inc. et al. v. Rimini Street, Inc., Case Nos. 16-16832, 16-16905
(9th Cir.).

10
advantageous fashion to in fact prevent or substantially impede the use of such third-party services.
Customers and their support providers thus run the
risk that a vendor will later dispute their honest,
good-faith reading of the relevant license agreements
and institute copyright infringement litigation. 3
In the ordinary case, copyright law provides a balanced solution to this dilemma. If the vendor's reading
of the license is held to be correct, a customer or support provider may be subject to liability for
infringement, and be required to pay typical compensatory copyright damages. Moreover, in assessing
those damages, a defendant's innocent state of mind
can be considered. For instance, in calculating statutory damages, the Copyright Act explicitly grants the
district court the discretion to "reduce the award of
statutory damages to a sum of not less than $200"
upon a finding that the "infringer was not aware and
had no reason to believe that his or her acts constituted an infringement." 17 U.S.C. § 504(c)(2). An
honest mistake in the interpretation of the scope of a
license does not immunize a defendant from liability-

3 Cf. Dan Woods, Why Third-Party Software Support is Possible and a Good Idea, Forbes, Apr. 18, 2016,
https://www.forbes.com/sites/danwoods/2016/04/18/why-thirdparty-software-support-is-possible-and-a-goodidea/n9e7371f6c77 ("Needless to say, Oracle isn't exactly happy
with customers successfully moving to third-party support options. After all, annual support fees provide a profit margin of
90% or more for them[.] * * * Third-party support vendors such
as Rimini Street and others have clearly proved third party support is not only possible for Oracle customers, but that they are
enabling organizations to reduce costs, obtain improved support
and position themselves for new initiatives. While Oracle doesn't
think this is such a good idea, an increasing number of organizations are finding the model works for them.")

11
and requires the defendant to fairly compensate the
copyright holder for the harm caused—but it does not
penalize the defendant either, or, worse still, threaten
to keep the defendant out of the repair or service market altogether.
The twin rulings of the district court and the Ninth
Circuit in the case below upset this important balance. The district court issued a permanent injunction
by, among other things, relying on what it characterized as Rimini's "conscious disregard for Oracle's
software copyrights," Pet. App. 21a, notwithstanding
the fact that a jury had determined at trial that Rimini's conduct—including its interpretation of
ambiguous terms in Oracle's license agreements—
was "innocent," Pet. App. 108a-110a. The Ninth Circuit then compounded that error by holding that the
district court's failure to consider the innocence finding before issuing the injunction was "harmless" and
that considering Rimini's adjudicated "mental state
was not necessary" to the injunction determination.
Pet. App. 3a-4a.
A. The ambiguity of many software license
agreements creates challenges to individual customers and their independent
repair and support providers

Ambiguity in license agreements is often inescapable. In 2016, for instance, the Department of
Commerce's Internet Policy Task Force acknowledged
concerns that end-user license agreements (EULAs)
for digital goods had grown to be lengthy and confusing: "commentators and participants on all sides
agreed that consumers are entitled to clarity and that
more should be done to communicate what rights they

12
are or are not getting."4 The Department of Commerce
therefore recommended "the creation of a multistakeholder process" to "establish best practices on how to
inform consumers clearly and succinctly about the
terms of EULAs regarding whether they 'own' the copies provided and what they may do with them."5
The Copyright Office reached similar conclusions
later that year in its own report on "Software-Enabled
Consumer Products."6 The Office noted a "common
theme raised by commentators regarding the practice
of software licensing"—"the use of complex and
opaque EULAs to frustrate reasonable consumer expectations."7 Like the Department of Commerce, the
Copyright Office recommended a "multistakeholder
process *
to establish best practices for EULAs in
the context of software-enabled consumer products,"
concluding that "it would be beneficial if manufacturers * * * made clear what rights consumers had in the
goods they were buying, including the right to resell,
repair, and improve the device."

4 Department of Commerce Internet Policy Task Force, White
Paper on Remixes, First Sale, and Statutory Damages 57 (Jan.
2016), http s://www.usp to. gov/site s/default/files/docu me nts/copyrightwhitepaper.pdf [hereinafter Internet Policy Task Force
White Paper].
5

Internet Policy Task Force White Paper, at 69.

6 U. S. Copyright Office, Software-Enabled Consumer Products:
A Report to the Register of Copyrights (Dec. 2016),
http s://www.copyright. gov/p olicy/software/software -full-re port.pdf [hereinafter Copyright Office Report].
7

Copyright Office Report, at 67

8

Copyright Office Report, at 68-69.

13
As desirable as the Department of Commerce's and
the Copyright Office's recommendations may be, individual customers and their independent support
providers ,do not yet have recourse to a "multistakeholder process" to disambiguate software license
agreements. Instead, like Rimini Street in the underlying litigation, support providers often find
themselves as defendants in copyright infringement
suits brought by motivated software vendors like Oracle. In that adversarial, high-stakes context, it is
imperative that support providers—and their customers—be permitted to establish the honesty of any
mistaken reading of the scope of a vendor's license
agreement, including, as equity requires, during any
proceedings on the issuance of an injunction.
B. Customers and their support providers
must be permitted to rely on the innocence of their conduct to the fullest
extent allowed in a copyright infringement action
Because of the often-unavoidable ambiguity in license language, it is essential that customers and
their support providers be permitted to have the entirety of their conduct weighed in any copyright
infringement trial, including during any injunctive
phase. Rimini Street's petition establishes well the
historical, doctrinal, and equitable reasons why an accused infringer's state of mind must be considered
prior to the issuance of an injunction—and why a
jury's finding of innocent infringement cannot be
simply disregarded as a matter of law. But practical
concerns have equal force.
In copyright infringement cases premised on a theory that the defendant infringed by acting outside the
scope of its license, the accused infringer often seeks

14
to establish the innocence of its conduct by demonstrating the reasonableness of its reading of
ambiguous license terms. To render this defense irrelevant, as the district court and Ninth Circuit did
below, would grant vendors free reign to insist on onesided, sweeping license readings that would chill legitimate conduct. Ironically, in an earlier decision
arising in a related licensing context, the Ninth Circuit recognized that very danger, observing that to
permit a vendor to use licensing terms to "designate
any disfavored conduct during software use as copyright infringement * * * would allow software
copyright owners far greater rights than Congress had
generally conferred on copyright owners." MDY Indus., LLC v. Blizzard Entm't, Inc., 629 F.3d 928, 941
(9th Cir. 2010).
That concern is all the more acute when the vendor
does not simply "designate any disfavored conduct" explicitly in the license but instead does so implicitly
through after-the-fact interpretation of ambiguous
terms in aggressive enforcement and litigation proceedings. Customers and their support providers are
not well served by having to guess as to how expansively and one-sidedly a vendor will interpret its
license agreements—and by having to assume the significant risk that a mistaken, view, even if honest and
reasonable, will carry dramatic consequences, like the
entry of a permanent injunction.

15
C. The solution to the dilemma facing support providers and their customers is to
ensure that jury findings of innocent behavior are weighed in the decision to
grant a permanent injunction
As Rimini Street's petition makes clear, the solution
here is straightforward: The innocence of a defendant's conduct must be adjudicated by the jury and,
consistent with longstanding equitable practice, any
finding of innocence must be considered as part of the
weighing of factors before granting injunctive relief.
In the proceedings below, the district court's contravention of the jury's innocence finding was not
"harmless," as the Ninth Circuit held. In fact, it created three related consequential harms impacting not
just Rimini Street but all independent third-party
support providers and their customers.
1. The courts' rulings would allow vendors to leverage ambiguous licensing terms into threats of
litigation—and threats of prohibitive injunctions during and resulting from the litigation—that would
drastically chill customers' willingness to engage in legitimate repair, as well as support providers' ability
to compete in the service and repair market. As noted,
no "multistakeholder process" or other objective mechanism currently exists by which licensees or their
third-party support providers can obtain any reasonable degree of ex ante certainty about whether their
conduct will run afoul of vendors' ambiguous licensing
restrictions. Support providers and their customers
must instead treat the issue as a business risk, but
one in which the ultimate consequences of accepting
that risk are highly uncertain and not truly amenable
to adequate risk mitigation.

16
Unlike most business risks, however, the approach followed by the district court and Court of
Appeals below imposes a punitive consequence out of
all proportion to the actual harm. All entrepreneurs
take on risk, including legal or regulatory risk, but in
the ordinary case the consequence of an incorrect
business judgment call is a monetary fine at least
roughly commensurate with the harm caused. Such a
fine was, for instance, imposed in the case below, in
the form of damages for copyright infringement, and
there is no question that Rimini Street paid the compensatory amount owed to Oracle in full. Pet. at 6. But
to add a prohibitory permanent injunction on top of
that damages award—even in the face of a jury finding of innocent infringement—imposes a grossly
disproportionate penalty. The unfortunate result is
that for support providers and their customers, the
risk that their interpretation of the scope of a license
is mistaken no longer remains a straightforward business-judgment risk. Rather, it has transformed into
an existential and potentially business-ending threat.
Finally, this threat—of an indiscriminate permanent injunction, even on conduct adjudicated to have
been innocent—has a drastic impact on the lawful
marketplace for third-party repair and support services. Any reasonable entrepreneur facing the twin
threat of (a) ambiguous license terms and (b) the real
prospect of a permanent injunction would surely think
twice before accepting that systemic risk and entering
the market—if they are brave enough to enter the
market at all. And the lamentable though predictable
consequence of fewer third-party support offerings is
lessened competition in the market for maintenance
and repair, with accompanying higher prices and
lower-quality service. That state of affairs may advantage Oracle, but certainly not the hundreds of

17

thousands of Oracle users deprived of competitive
choice.9
D. The district court's and Court of Appeals' injunctive rule threatens harsh
consequences beyond the market for
software service and maintenance

Most problematic of all is that, if allowed to stand,
the impact of the courts' permanent-injunction rulings
below will be felt in multiple industries. As noted
above, software is at the heart of the digital economy
of the 21St century, which encompasses a vast marketplace of goods and services, from cars to mobile
phones to electronic books to "smart" air conditioners.
Even if Oracle is not a player in those markets, the
threat of aggressive vendors dictating and enforcing
ambiguous license terms under the threat of punitive
permanent injunctive relief is no less present. Indeed,
it is that very real and profound concern that motivated the Department of Commerce and Copyright
Office to question the increasing use of ambiguous and
string EULAs now found in virtually "all digital goods,
including software, books, and music."10
Nothing in the district court's or the Court of Appeals' opinion cabins their rule or rationale to the
enterprise-software support market in which Oracle
and Rimini Street participate. In an economy where

9 See Oracle, Corporate Facts, https://www.oracle.com/corporate/corporate-facts.html (last visited Dec. 2, 2019) (reporting
that Oracle has "430,000 customers in 175 countries").

io Copyright Office Report, at 68; Internet Policy Task Force
White Paper, at 55-58, 68-69.

18
"software is eating the world,"H the consequences of
those decisions are too severe to permit the courts' rulings below on permanent injunctive relief. Innocent
infringers must be afforded the opportunity to have
their adjudicated innocence appropriately weighted
before any permanent injunction issues.
CONCLUSION
For the foregoing reasons, this Court should grant
the petition for certiorari.

Respectfully submitted,
JAMES C. PHILLIPS
KIRTON MCCONKIE
36 South State Street
Suite 1900
Salt Lake City, UT 84111

ALEKSANDER J. GORANIN
Counsel of Record
MICHAEL R. GOTTFRIED
DUANE MORRIS LLP
30 South 17th Street
Philadelphia, PA 19103
(215) 979-1868
agoranin@duanemorris.com

Counsel for Amici Curiae
December 6, 2019

11 Marc Andreesen, Why Software is Eating the World, Wall St.
https://www.wsj.com/arti(Aug.
20,
2011),
J.
cles/SB10001424053111903480904576512250915629460.

